WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No. 19-1083

Jeffrey A. Clouser

Kim Doherty, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested

by the Court.
Please check the appropriate boxes:
11] Please enter my appearance as Counsel of Record for all respondents.
El There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Wayne A. Barton, Lillian Lowery and the Delaware Department of Education

I am a member of the Bar of the Supreme Court of the United States.

f1 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date- April 1, 202
(Type or print) Name George T. Lees Ill
E] Mr.
❑ Ms.
❑ Mrs.

❑ Miss

Firm Delaware Department of Justice
Address Carve! State Office Building, 820 North French Street, 6th Floor
City & State Wilmington, Delaware
Phone (302)577-8859

Zip 19801
Email George.

Delaware.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPI
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQ JI
cc: Dr. Irwin Lance Lifrak, Esq., James H. McMackin III, Esq.

APR - 8 2020
OFFICE OF CTH FCLuRsK.
SUPREME•

